U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


         MAINFRAME COMPUTER
      POLICIES AND PROCEDURES,
    ADMINISTRATIVE SERVICE CENTER,
       BUREAU OF RECLAMATION

              REPORT NO. 97-I-683
                 MARCH 1997
                                          GLOSSARY


Asynchronous Protocol. Refers to a set of conventions used to start and stop transmissions that
occur without a regular or predictable time relationship to a specific event. Synchronous protocol
refers to a set of conventions used for transmissions that occur regularly or predictably with respect
to a specific event.

Customer Information Control System (CICS). This is an IBM software product that serves as
a teleprocessing monitor for the MVS operating system on the Service Center’s mainframe
computers, which enables transactions entered at remote computer terminals to be processed
concurrently and is designed to control execution of application programs in an interactive on-line
environment.

Data Structure. How the data are physically laid out within a computer system (for example, the
fields in a record).

Ethernet. A networking scheme that allows microcomputers to be connected to a network. It
physically consists of cabling, which connects all the machines on a network.

Multiple Virtual Storage/Enterprise Systems Architecture (MVWESA). An operating system
that runs on IBM mainframe computers and increases virtual memory capability to 16 terabytes
(trillion bytes),

Resource Access Control Facility (RACF). An IBM-licensed product that provides for access
control by identifying and verifying users to the system, authorizing access to protected resources,
logging detected unauthorized attempts to enter the system, and logging detected accesses to
protected resources.

Time Sharing Option (TSO). A system software product that serves as the session manager on the
mainframe computers whereby terminal users can submit jobs on-line. Time sharing allows a number
of users to execute programs concurrently and to interact with the programs during execution.

Transmission Control Protocol/Internet Protocol. The system that networks use to communicate
with each other by allowing traffic to be routed from one network to another. The Internet Protocol
is a set of conventions used to pass packets (that is, a cluster of data) from one network to another.
                                                                              A-IN-BOR-001-96


                United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240




                                    AUDIT REPORT
Memorandum

To:                          for Water and Science

From:
         Assistant Inspector General for Audits

Subject: Audit Report on Mainframe Computer Policies and Procedures, Administrative Service
         Center, Bureau of Reclamation (No. 97-I-683)

                                   INTRODUCTION
This report presents the results of our audit of mainframe computer policies and procedures at the
Bureau of Reclamation’s Administrative Service Center. The objective of the audit was to evaluate
the adequacy of the management and internal controls of the Service Center’s mainframe computer
system and its processing environment. Specifically, the audit focused on management and internal
controls over the following areas: computer center management and operations; telecommunications
and local area network (LAN) security; application systems access; mainframe computer system
physical and logical security; and contingency planning, backup, and disaster recovery.

BACKGROUND

The Bureau of Reclamation’s Administrative Service Center in Denver, Colorado, provides: (1)
consolidated payroll and personnel services for about 106,000 employees in the Department of the
Interior and five other Federal agencies and (2) Government accounting, integrated budgeting, and
reporting services through the Federal Financial System (FFS) to five Departmental and five other
Federal agencies.

At the time of our review, payroll and personnel services were provided through the
Payroll/Personnel System (PAY/PERS). However, the Service Center was developing a new
personnel/payroll system, the Federal Personnel Payroll System (FPPS). The first phase of the new
system, which has been implemented, is the SF-52 System (an SF-52 form is entitled “Request for
Personnel Action”). The second phase, which consists of personnel actions and payroll processing,
is scheduled for implementation beginning in September 1997. The Service Center was also to
provide payroll and personnel services to an additional 65,000 Social Security Administration
employees beginning in October 1997.
The Service Center’s ADP Services Division is responsible for managing the computer center that
provides the various services. To assist the Division in carrying out its functions, the Service Center
has contracted Tri-Cor to provide staff to assist in operating and maintaining the computer systems
software, communications, and LANs. The computer center provides data processing support for

the computer center operates an IBM mainframe computer that runs Multiple Virtual Storage (MVS)
Extended Systems Architecture operating system to manage the processing work load. The access
control security software installed on the mainframe computer is the Resource Access Control Facility
(RACF), which controls user access not only to the application systems, such as the Customer
Information Control System applications, but also to the Time Sharing Option (TSO) facility. The
FFS contains application level security that controls the action a user may invoke. Other system
software, such as other data base management software, telecommunications software, and
specialized vendor software products, also resides on the mainframe computers. Network and local
communications support for both asynchronous and synchronous protocols are provided, as well as
LAN connectivity, through Ethernet and Transmission Control Protocol/Internet Protocol. (The
specific computer system software and network communications cited are detailed in the Glossary.)

SCOPE OF AUDIT

To accomplish our objective, we interviewed Service Center and Tri-Cor personnel, reviewed systems
documentation, observed and became familiar with computer center operations and data structures,
analyzed system security, and observed a disaster recovery test. In addition, we reviewed the
software maintenance procedures. Because our review was limited to evaluating the adequacy of
internal controls at the Service Center, we did not test the effectiveness of the internal controls at the
various bureaus and agencies serviced by the Service Center.

Our audit, which was conducted during June through October 1996, was made in accordance with
the “Government Auditing Standards,” issued by the Comptroller General of the United States.
Accordingly, we included such tests of records and other auditing procedures that were considered
necessary under the circumstances.

As part of our audit, we evaluated the Service Center’s system of internal controls over its mainframe
computer system that could adversely affect the data processing environment, The control
weaknesses that we found are discussed in the Results of Audit section and in Appendix 1 of this
report. If implemented, our recommendations should improve the management and internal controls
in the areas cited.




any information, the loss, misuse, or unauthorized access to or modification of which could adversely affect the national
interest or the conduct of federal programs, or the privacy to which individuals are entitled under the Privacy Act, but which
has not been specifically authorized under criteria established by an Executive Order or an Act of Congress to be kept secret
in the interest of national defense or foreign policy.”

                                                              2
PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not issued any reports related to the scope
of this audit. However, in March 1994, the Office of Inspector General issued the report
“Compliance With the Computer Security Act of 1987, Denver Administrative Service Center,
Bureau of Reclamation” (No. 94-I-357). The report stated that the Service Center generally complied
with requirements of the Computer Security Act of 1987 but that improvements were needed in the
areas of security and operations. Since the Service Center was addressing all of the deficiencies
identified, no recommendations were made. However, deficiencies in performing a risk analysis of
the Service Center’s LANs and in the separation of duties within RACF software still existed during
our review. These issues are discussed in the Results of Audit section and in Appendix 1 of this
report.

                                  RESULTS OF AUDIT

The Bureau of Reclamation’s Administrative Service Center has weaknesses in management and
internal controls in five major areas: (1) computer center management and operations; (2) LAN
protection; (3) FFS application; (4) computer mainframe system physical and logical security; and (5)
contingency planning, backup, and disaster recovery. Office of Management and Budget Circular A-
130, “Management of Federal Information Systems,” and the National Institute of Standards and
Technology Federal Information Processing Standards Publications require Federal agencies to
establish and implement computer security and management and internal controls to improve the
protection of sensitive information in the computer systems of ‘executive branch agencies.
Additionally, the Congress enacted laws, such as the Privacy Act of 1974 and the Computer Security
Act of 1987, to improve the security and privacy of sensitive information in computer systems by
requiring executive branch agencies to ensure that the level of computer security and controls is
adequate. However, the Service Center has not complied with these criteria in that it did not
document formal policies, standards, and procedures; follow proper practices and processes;
segregate duties; comply with key software vendor guidelines for MVS integrity; and develop a
formal, up-to-date, comprehensive data security program. These weaknesses increase the risk of
unauthorized access and modifications to and disclosure of client-sensitive data supported by the
Service Center’s mainframe computer; theft or destruction of hardware, software, and sensitive
information; and the loss of critical systems and functions in the event of a disaster.

Overall, we identified 15 weaknesses and made 24 recommendations for improving management and
internal controls at the Service Center. The weaknesses within the five major areas are provided
below, and specific details of the weaknesses and our respective recommendations to improve these
weaknesses are in Appendix 1.
Computer Center Management and Operations

We found that contractor employees in critical positiorx did not have proper background clearances,
Without knowledge of security-related background information on contractor personnel, the risk is
increased for Service Center’s sensitive systems to be compromised. We made one recommendation
to address this weakness.

LAN Protection

We found that the Service Center could improve controls in administering and managing its LAN.
Improved controls were needed in the areas of intruder detection lockout settings, disaster recovery,
and user access. Because of the weak controls, the risk is increased for Service Center personnel to
have unauthorized access to the mainframe computer and thus to sensitive payroll and accounting
data. We made five recommendations to address these weaknesses.

FFS Application

We found that access controls in the FFS application software would not prevent Service Center
users from generating unauthorized disbursements. Specifically, several users had access to vendor
tables, which could result in the tables being changed and disbursing documents being affected. We
made one recommendation to correct this weakness,

Mainframe Computer System Physical and Logical Security

We found that the Service Center did not always comply with Circular A- 130 or the Department of
the Interior’s “Information System Security Handbook.” Also, the Service Center did not implement
controls recommended in software vendor guidelines and generally accepted information system
industry practices in administering and implementing operating system and access security software
on its mainframe computers. These weaknesses were in the areas of physical security, password
settings, System Management Facility (SMF) logs, multiple user identification (ID) codes, ADP
access levels, separation of duties in the use of RACF security controls, and computer security plans.
As a result, sensitive data maintained on the Service Center’s computer were vulnerable to
unauthorized access and change. We made 14 recommendations to address weaknesses in these
areas.

Contingency Planning, Backup, and Disaster Recovery

We found weaknesses in the Service Center’s contingency planning, backup, and disaster recovery
for its sensitive systems and mainframe computing environment. Specifically, rather than relying on
documented procedures, the Service Center relied upon individuals’ knowledge. We also found that
the Service Center did not have a documented comprehensive business recovery plan. As a result, in


                                                  4
the event of a disaster, the Service Center may not be able to recover critical systems and business
functions. We made three recommendations to address these weaknesses.

Bureau of Reclamation Response and Office of Inspector General Reply

In the March 24, 1997, response (Appendix 2) from the Commissioner, Bureau of Reclamation, to
our draft report, the Bureau generally concurred with 23 of our 24 recommendations. Based on the


0.1 resolved but not implemented; and Recommendation L. 1 unresolved. Accordingly, the
unimplemented recommendations will be referred to the Assistant Secretary for Policy, Management
and Budget for tracking of implementation, and the Bureau is requested to reconsider the unresolved
recommendation (see Appendix 3). While the Bureau’s response generally concurred with the
recommendations, except for Recommendation L. 1, the response did take issue with several
statements regarding our recommendations, which we have addressed as follows:

         - Recommendation L.1. The Bureau said that it “disagree[d]” with the recommendation and
that it “question[ed] any adverse effect as well as any benefit from retroactively requiring additional
documentation [to ensure that Decentralized Security Administration Facility records are updated for
oral access adjustments]. While we did not question the validity of oral requests for access to the
mainframe computer systems, we did recommend that these requests and approvals be documented
in Facility records to allow reconciliation between access requested and access allowed to ensure that
access is assigned at the appropriate level. Accordingly, the Bureau should reconsider its response
to this recommendation.

         - Recommendation F.1. While the Bureau said that it has complied with the recommendation,
it stated that the problem was “currency of documentation” and not a problem of physical security
because two levels of security control occur before personnel are allowed entry into the computer
rooms. We agree that two levels of security control had to be passed through to enter the computer
room. However, the Service Center had “generic” key cards that were issued to and used by vendors
and building management personnel for access to the computer rooms. Thus there was little
assurance that only specific people had use of the key card to gain access to the computer rooms.

        - Recommendation G.2. While the Bureau said that it concurred with the intent of the
recommendation, it stated in its response that the 180-day password interval for RACF security
applied to only one application, the Automated SF 52 System. The Bureau stated that the “extended
interval” was requested by the users and approved by the Bureau’s Security Ma.nager. It further
disagreed with our assertion that “not all mainframe applications have access security.” We disagree
with these statements. First, the Automated SF 52 System is not the only application residing on the
mainframe. The mainframe also houses the PAY/PERS and the Federal Financial System, both
sensitive applications. Further, at the time the Service Center received approval for the 180-day
password interval in June 1994, the PAY/PERS was not residing on the mainframe. Second, the
PAY/PERS does not have adequate security within the application; thus it relies exclusively on

                                                   5
RACF security to control access. As such, by default, users to the mainframe applications have 180-
day password settings.

         - Recommendation K.1. While the Bureau concurred with the recommendation, it disagreed
that the condition was caused by the limited number of staff assigned to the group for monitoring
security. The Bureau stated, “This information does not represent the ASC [Administrative Service
Center] position.” During our review, we found that the group did not have an adequate number of
staff or that the work load was distributed to ensure that the segregation of duties was adequate.

        - Recommendation N.1. While the Bureau concurred with the recommendation, it stated that
“this condition should have been more appropriately stated as a currency of documentation issue”
because the Administrative Service Center “has addressed recovery of the Federal Financial System
and telecommunications although not formally documented.” We disagree. By not including the
Federal Financial System and telecommunications in the Continuity of Operations Plans, there is little
assurance that the Federal Financial System and telecommunications would be addressed and
recovered during the testing of the plan or in the event of a disaster. Further, during our review of
a disaster recovery test, the Federal Financial System was not included in any of the tests performed
by the Service Center.

Additional Comments on Audit Report

In its response, the Bureau disagreed with our use of “generally accepted industry and information
system standards” as acceptable criteria, stating that “a conclusive set of standards were not available
and the auditors were not aware as to whether these standards had ever been issued as official
Government-wide policy.” The Bureau further stated that the Department’s Office of Information
Resources Management had likewise advised that it was unaware of these standards and of their
applicability to Departmental organizations,

However, computer and information system audit guidelines that were used by the auditors in
performing the audit are those that are also used by other Federal Government and private industry
auditors and computer installation staff in evaluating the effectiveness of computer center
management and operations, The audit guidelines refer to numerous directives, policies, and
guidelines issued by the Office of Management and Budget and the National Institute of Standards
and Technology and, by reference, to non-Federal standard-setting organizations such as the
Information Systems Control Foundation, the Institute of Internal Auditors Research Foundation, and
the American Institute of Certified Public Accountants. Further, the Office of Management and
Budget and the National Institute of Standards and Technology, by reference, include and recognize
not only these non-Federal standard-setting organizations but also the British Standards Institute, as
well as: (1) periodicals such as the Auerbach Publishers newsletters and articles (EDP Audit and
Control Newsletter), LAN Times, and Infosecurity News; (2) symposiums and conferences held by
the Institute of Electrical and Electronic Engineers Computer Society, the National Computer
Security, and UNIX; and (3) individuals who are considered experts in information systems such as
the Inspector General for the U.S. House of Representatives. While guidelines and standards issued

                                                   6
by these organizations, publishers, and individuals may not have been issued as “official
Governmentwide policy,” they promulgate industrywide standards and are the bases for many
Governmental directives, policies, and guidelines issued that are related to information systems. In
addition, many of the Federal Government policies, directives, and guidelines state that the
requirements therein are “minimum” requirements, which implies that additional requirements or
standards such as those defined by the information systems industry can and should be used.

The Bureau also questioned certain recommendations in terms of their consistency with Office of
Management and Budget policies, in particular, with policies of Circulars A-123 and A-l 30. In this
regard, the Bureau said that we did not consider cost as an “important consideration” when
addressing “adequate” computer security controls.

Regarding the “costs” of our recommendations, we are not responsible for performing cost-benefit
analyses of the computer controls needed for the Bureau’s automated information systems. Rather,
the Bureau is responsible for conducting an adequate review of the risks and associated costs when
it determines the controls needed in its computer systems, The auditors are responsible for
determining whether the analyses were adequate for the circumstances. During our review, the
Bureau could not provide us with any such analyses of cost versus risk.

While the Bureau stated that armed guard service was on-site at the Service Center 24 hours a day,
we did not see a guard on-site during normal duty hours at any time during our audit. We agree that
the security measures identified in the Bureau’s response reduce the risk of physical damage to the
Facility and thus to computers. However, our audit was not limited to reviewing only the physical
access to and the security of the Facility. It also included a review of physical access to computer
hardware and software. As stated in our report, physical access to the computer rooms was not
controlled or limited to only those personnel who required access to perform their day-to-day duties.

As required by the Departmental Manual (360 DM 5.3) please provide us with your written
comments to this report by June 3, 1997. The response should provide the information requested in
Appendix 3,

The legislation, as amended, creating the Office of Inspector General requires semiannual reporting
to the Congress on all audit reports issued, actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau Administrative Service Center personnel in the conduct of
our audit.




                                                  7
                                                                                     APPENDIX 1
                                                                                      Page 1 of 20


    DETAILS OF WEAKNESSES AND RECOMMENDATIONS


COMPUTER CENTER MANAGEMENT AND OPERATIONS

A. Background Clearances

Condition:    Critical contractor personnel, such as the RACF administrator and software
              management personnel, did not have documented clearances.

Criteria:     Office of Management and Budget Circular A-130, Appendix III, requires agencies
              to establish and manage personnel security policies, standards, and procedures that
              include requirements for screening individuals who: (1) participate in the design,
              development, operation, or maintenance of sensitive applications or (2) have access
              to sensitive data.

Cause:        While Federal employees are required to have background clearances, the Service
              Center did not apply this requirement to contractors.

Effect:       Without proper personnel screening, managers had limited knowledge of the
              suitability of contractor personnel, from a security standpoint, for their respective
              jobs. Without this assurance, the risk is increased for the Service Center’s sensitive
              systems to be compromised.

Recommendation:

We recommend that the Director, Administrative Service Center, require all contractor employees
to have the proper background clearances.




                                                8
                                                                                   APPENDIX 1
                                                                                    Page 2 of 20


LAN PROTECTION

B. LAN Monitoring

Condition:    Four file servers at the Service Center had minimal lockout settings. For example,
              current lockout procedures provide for only a 15-minute lockout after three or four
              unsuccessful log-in attempts. We believe that these lockout settings would not
              adequately identify unauthorized access. The NetWare operating system software
              supports an “intruder detection/lockout feature,” which aids in the prevention of
              unauthorized access to the system. The system will suspend a user account when a
              predefined number of unsuccessful access attempts occurs in a predetermined amount
              of time. The time that an account is suspended may also be defined.

Criteria:     The Privacy Act of 1974 and the Computer Security Act of 1987 require
              implementation of minimally acceptable security practices for improving the security
              and privacy of sensitive information in Federal computer systems. Office of
              Management and Budget Circular A-l 30 requires agencies to establish controls to
              ensure adequate security for all information processed, transmitted, or stored in
              Federal automated information systems. Also, the Circular requires agencies to
              ensure that appropriate safeguards exist in general support systems (for example,
              LANs and the data processing center, including the operating system and utilities).
              In addition, industry standards recommend a lockout period of 7 days.

Cause:        Service Center officials stated that the 15-minute lockout met the Bureau of
              Reclamation’s LAN standards. However, the Bureau’s LAN implementation
              guidelines recognize that the minimum settings for intruder lockout parameters may
              be unacceptable to many offices. We believe, given the sensitivity of data at the
              Service Center, that minimum settings are unacceptable to ensure protection from
              unauthorized access to sensitive data.

Effect:       The minimum level of security set for the LAN increases the risk that unauthorized
              access to the Service Center’s LAN resources will not be detected timely.

Recommendation:

We recommend that the Director, Administrative Service Center, enhance the intruder detection
settings above the Bureau of Reclamation’s policy to suspend a user account, after unsuccessful
access attempts, for a period of time long enough to ensure that the user will have to contact an
administrator to have the user ID reset. For example, the user ID could be suspended for 24 hours
after three incorrect attempts occurred in a 24-hour period.

                                                9
                                                                                       APPENDIX 1
                                                                                        Page 3 of 20


LAN PROTECTION

C. LAN Disaster Recovery Plan

Condition:    The Service Center did not have a documented disaster recovery plan for its LAN.
              This weakness was identified in a March 1994 Office of Inspector General audit

              risk analysis (the first step in developing a disaster recovery plan) on its LAN.

Criteria:     Office of Management and Budget Circular A- 130, Appendix III, requires agencies
              to establish controls to ensure adequate security for all information processed,
              transmitted, or stored in Federal automated information systems. Specifically,
              agencies should establish a contingency plan and periodically test the capability of the
              plan to perform the function in the event that its automated systems fail

Cause:        Because no risk analysis has been performed on the LAN, no disaster recovery plan
              has been developed by the Service Center.

Effect:       The lack of a disaster recovery plan increases the risk that offices will not be able to
              resume processing on a timely basis after a disaster occurs.

Recommendation:

We recommend that the Director, Administrative Service Center, develop and periodically update a
disaster recovery plan for the LAN.




                                                 10
                                                                                     APPENDIX I
                                                                                      Page 4 of 20


LAN PROTECTION

D. User Access Control

Condition:   The security settings that provide access to the file servers were not controlled. We
             identified weaknesses in the way user profiles had been established. In NetWare,
             established user profiles superseded the file server default restrictions. As such, some
             users had a required password change interval greater than 90 days, had concurrent
             multiple or unlimited connections, and were not required to use unique passwords.

             In addition, the “SECURE CONSOLE” command was not used on any of the file
             servers we reviewed. The “SECURE CONSOLE” command is designed to prevent
             users from gaining access to the file server console by removing DOS from the system
             memory when the operating system is powered down. Also, the “SET ALLOW
             UNENCRYPTED PASSWORD = ON” was found on two of the file servers
             reviewed. This designation allows passwords to be UNENCRYPTED, thereby
             increasing the risk for passwords to be obtained and used by unauthorized users.

Criteria:    Office of Management and Budget Circular A- 130, Appendix III, requires agencies
             to establish controls to ensure adequate security for all information processed,
             transmitted, or stored in Federal automated information systems, It also requires
             agencies to implement and maintain a program to ensure that adequate security is
             provided for all agency information collected, processed, transmitted, stored, or
             disseminated in general support systems and major applications. The Circular mrther
             defines “adequate security” as “security commensurate with the risk and magnitude
             of harm resulting from the loss, misuse, or unauthorized access to or modification of
             information.”

Cause:       Service Center procedures were not followed or were not in place to ensure that
             controls were adequate to safeguard the LANs.

Effect:      The minimum security settings for the Service Center’s LAN increase the risk for
             unauthorized access to network systems, which could result in the loss of data and
             in unauthorized individuals gaining access to sensitive data files through DOS by
             bringing down the file server.




                                                11
                                                                                     APPENDIX 1
                                                                                      Page 5 of 20


LAN PROTECTION

Recommendations:

We recommend that the Director, Administrative Service Center:

     1. Ensure that LAN security and password features are implemented, which will require all users
to change passwords every 90 days, enforce unique password use, and limit concurrent multiple or
unlimited connections to one per user and grant additional connections on an as-needed basis.

     2. Include the “SECURE CONSOLE” command in the AUTOEXEC.NCF file on all file servers
to prevent users from gaining access to the system files in DOS mode.

    3. Ensure that the command “SET ALLOW UNENCRYPTED PASSWORD=ON” is not




                                                 12
                                                                                        APPENDIX 1
                                                                                         Page 6 of 20


FFS APPLICATION

E. Access Security Controls

Condition:     FFS security access controls were not adequate. We identified 15 users, who were
               Service Center employees, who could update and modify the application vendor table
               of one of the Service Center’s clients, as well as initiate disbursement documents.
               This access could result in the vendor table being changed and in an unauthorized
               disbursing document being entered.

Criteria:      Office of Management and Budget Circular A-130, Appendix III, requires that
               security controls for personnel include such controls as individual accountability,
               “least privileged,” and separation of duties. “Least privileged” is the practice of
               restricting users’ access (to data files, to processing capability, or to peripherals) or
               type of access (read, write, execute, or delete) to the minimum necessary for the users
               to perform their jobs. Separation of duties is the practice of dividing the steps in a
               critical function among different individuals.

Cause:          Although the Service Center provided payment services to its client, the Service
                Center had not ensured that security controls in the FFS application prevented
                unauthorized payments. Service Center officials stated that the client was responsible
                for establishing the application security.

Effect:         Without the applicable security access controls, the risk is increased for unauthorized
                payments to be disbursed.

Recommendation:

We recommend that the Director, Administrative Service Center, coordinate with the client to limit
Service Center users’ access to the “least privileged” in the FFS application; that is, assurance should
be provided that any user authorized to enter or change the vendor table does not also have access
to disbursing documents.




                                                   13
                                                                                     APPENDIX 1
                                                                                      Page 7 of 20


MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY

F. Physical Security

Condition:   Although access to the Service Center facilities was controlled, the Service Center
             could not identify all individuals who had card key access to the computer rooms,
             which house the mainframe and LAN. In addition, some Service Center visitors (for
             example, maintenance personnel, janitorial staff, and vendors) were not monitored
             when they were inside the computer room.

Criteria:    The Department of the Interior Automated Information System Handbook, when
             addressing the control for personnel access to computer facilities, states, “Access by
             visitors, equipment personnel, and other individuals not directly involved with
             managing or operating a sensitive automated information system installation will be
             controlled by individual authorization.” The Handbook further states that it is
             recognized that different procedures and restrictions will be required for various
             categories of visitors but that all access by other than assigned personnel will be
             monitored.

Cause:       The Service Center’s informal procedures provided for vendors, as well as for the
             building management company, to be issued card keys to these sensitive areas without
             identifying the individuals receiving the cards and without requiring formal access
             request forms. Also, current practices allow certain visitors to be unmonitored when
             they are in the sensitive areas,

Effect:      The Service Center cannot specifically identify all those individuals who have access
             to and/or are accessing the computer rooms. Furthermore, by not monitoring all
             visitors, the risk is increased for the Service Center’s sensitive data and resources to
             be stolen or destroyed.




                                                14
                                                                                      APPENDIX 1
                                                                                       Page 8 of 20


MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY

Recommendations:

We recommend that the Director, Administrative Service Center:

      1. Document procedures for the issuance of key cards and require that the procedures be
instituted for vendors in addition to contractors and Federal employees.

     2. Evaluate the need for individuals outside of the ADP Services Division to be issued permanent
card keys because such access should be limited to those individuals performing their day-to-day
duties.

     3, Document procedures to ensure the Service Center’s compliance with the Department of the
Interior Automated Information Systems Handbook regarding visitor (such as maintenance
personnel, janitorial staff, and vendors) monitoring.




                                                 15
                                                                                      APPENDIX 1
                                                                                       Page 9 of 20


MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY



Condition:     In RACF, general client user passwords for access to the mainframe were not
               prompted for change until after 180 days, and user ID codes were not automatically
               revoked until 180 days of inactivity.

Criteria:      The Department of the Interior Automated Information Systems Security Handbook
               recommends that passwords be changed every 90 days. Also, generally accepted
               industry standards indicate that password change intervals should be from 60 to 90
               days for users who do not have sensitive privileges and every 30 days for users who
               do have sensitive privileges because passwords may be guessed, copied, overheard,
               or recorded and played back.

Cause:         To make access to the mainframe applications more convenient for Service Center
               clients who use the mainframe applications only occasionally, notably the SF-52
               System users, the Service Center increased the password interval to 180 days in 1994
               after receiving approval from the Bureau of Reclamation’s Security Administrator.
               However, this approval recommended that the Service Center change the password
               parameters, such as requiring a numeric or special character as part of the password,
               set in RACF security software. Service Center officials stated that the 180-day
               interval was acceptable because of security available within the mainframe
               applications. However, not all of the mainframe applications have access security.

Effect:        The current password settings reduce the effectiveness of the password as a control,
               thereby increasing the risk for unauthorized access to sensitive information through
               password disclosure.

Recommendations:

We recommend that the Director, Administrative Service Center:

     1. Evaluate the feasibility of setting the parameters in RACF security software to require one
numeric or special character as part of the password, as recommended by the Bureau of
Reclamation’s Security Administrator.

      2. Reevaluate the standard RACF password change intervals and revocation settings to ensure
that the level of risk associated with the mainframe applications and the current password settings is



                                                  16
                                                                                   APPENDIX 1
                                                                                   Page 10 of 20


acceptable to the Service Center, as well as to its clients and the Department, and address these
results in a current risk assessment.




                                               17
                                                                                   APPENDIX 1



MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY

H. SMF Logs

Condition:   At least 27 Service Center user ID codes that were allowed access to the TSO
             software had “alter” access to the “SYSl .MAN%” dataset. The SYSl.MAN%
             dataset contains the SMF logs that record all system activity, thereby providing a
             system audit trail. In addition, a critical SMF record type, record type 60, was not
             active.

Criteria:    Office of Management and Budget Circular A-130 recommends that adequate audit
             trails exist so that an adverse impact on general support systems is prevented or
             detected. Also, Federal Information Processing Publication 41, “Computer Security
             Guidelines for Implementing the Privacy Act of 1974,” provides guidelines for system
             security and addresses the importance of having audit trails of all system activity.

Cause:       The Service Center had insufficient policies and procedures surrounding the
             protection of the SYS1.MAN% datasets. Also, SMF record type 60 was not active
             because Service Center officials said that they believed another software product
             INFOPAC (report generation software) created too many records. They said,
             therefore, that to reduce the amount of storage needed for SMF logs, record type 60
             was not activated.

Effect:      By allowing users “alter” access to these logs, the risk is increased for the SMF logs
             to be inaccurate. Furthermore, because record type 60 is not active, no system audit
             trail exists to determine whether the changes to sensitive datasets by authorized
             individuals are appropriate. Specifically, because the PAY/PERS application has no
             internal security to monitor access and changes to its datasets, the Service Center
             relies only on RACF security. The active SMF record types identified only security
             violations and did not record changes made to datasets. Therefore, in the PAY/PERS
             application, there was no system audit trail available to monitor and evaluate changes
             made to PAY/PERS sensitive data.




                                               18
                                                                                    APPENDIX 1
                                                                                    Page 12 of 20


MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY

Recommendations:

We recommend that the Director, Administrative Service Center :

     1. Evaluate the feasibility of limiting the number of Service Center users who have access
authority to alter SMF logs.

     2. Ensure that the SMF record type 60 logging is active or RACF settings are adjusted to
specifically audit critical datasets maintained on the mainframe computers and to therefore provide
an audit trail of system activity.




                                                 19
                                                                                    APPENDIX 1
                                                                                    Page 13 of 20



MAINFRAME COMPUTER PHYSICAL AND LOGICAL SECURITY

I.   “OPERATIONS” Attribute

Condition:   The Service Center gave access to all of the operating system resources by assigning
             the “OPERATIONS” attribute to 85 active Service Center user IDS without logging
             the activities of these users. Through this access, users could make unauthorized
             changes to the mainframe computer operating system and sensitive application
             datasets without being detected by routine security controls.

Criteria:    The RACF Auditor’s Guide states that “the OPERATIONS attribute allows a user
             access to almost all resources” and that the “group-OPERATIONS attribute allows
             a user access to almost all resources within the scope of the group and its subgroups.”
             The “OPERATIONS” attribute, with some exceptions, provides the user with full
             control over datasets. Further, the RACF Security Administrator’s Guide
             recommends that the “OPERATIONS” attribute be assigned to a minimum number
             of people and that the activities of the users be logged. RACF allows the use of more
             restrictive authorities, such as DASDVOL authority, when routine maintenance
             operations are performed. RACF security software also provides the option to log
             activities of users with the “OPERATIONS” attribute by activating the OPERAUDIT
             option.

Cause:       The Service Center had not assigned more restrictive authorities to individuals who
             performed routine system maintenance tasks because the Service Center had not
             evaluated the system access authority needed for individual users in performing their
             day-to-day functions. Also, the Service Center had not implemented the
             OPERAUDIT security feature in RACF that would log user activities as a result of
             the “OPERATIONS” attribute.

Effect:      Because the OPERAUDIT security feature had not been activated, any resource on
             the mainframe computer could be accessed using the “OPERATIONS” attribute
             without recording the user’s access. This setting, along with the lack of system audit
             trails that would be produced by the SMF 60 record type, increases the risk for
             intentional or accidental unauthorized system actions to occur and not be detected.




                                               20
                                                                                 APPENDIX 1
                                                                                 Page 14 of 20


MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY

Recommendations:

We recommend that the Director, Administrative Service Center:

    1. Evaluate the extent to which the “OPERATIONS” attribute should be available to Service
Center user IDS. Specifically, the use of other more restrictive RACF authorities (such as
DASDVOL authority) should be considered where possible.

     2. Activate the security feature RACF OPERAUDIT and ensure that security personnel perform
periodic reviews of the resultant logs to identify unauthorized activity.




                                              21
                                                                                           APPENDIX I
                                                                                           Page 15 of 20



MAINFRAME COMPUTER PHYSICAL AND LOGICAL SECURITY

J. ADP Access Levels

Condition:      Users in the Service Center’s ADP Services Division had significant access levels.
                For example, 28 user IDS had RACF authority to emulate the master console, even
                though the authority to issue operator commands through the TSO was not given to
                these individuals. In addition, 28 user IDS had “alter” access to the system parameter
                libraries (for example, the SYSl .PARMLIB) through the TSO.

Criteria:       Office of Management and Budget Circular A-130 requires, at a minimum, that
                agency programs incorporate controls such as “separation of duties, least privileged,
                and individual accountability” within their major applications.

Cause:          Because of other Service Center priorities, the group responsible for monitoring
                security had not performed an audit of user access levels and therefore had not
                identified the required necessary changes and had not ensured that user access was at
                the authorized level. In addition, the ADP Services Division had not implemented
                procedures to ensure that “least privileged” access controls and appropriate separation
                of duties were in place.

Effect:         By allowing significant access levels to critical functions, the risk is increased for
                datasets to be altered without authorization and for the alteration to go undetected
                by normal operating controls. Without periodic review of user access levels, the risk
                is increased that the access given to a user will exceed that which is necessary to
                perform the user’s daily job.

Recommendations:

We recommend that the Director, Administrative Service Center:

     1. Ensure that the group responsible for monitoring security performs periodic reviews of user
access levels to identity required necessary changes and to ensure that user access levels are
authorized.

      2. Institute a policy of “least privileged” access levels to ensure that access to resources and data
is limited to those users who require such access.




                                                    22
                                                                                        APPENDIX 1
                                                                                        Page 16 of 20



MAINFRAME COMPUTER PHYSICAL AND LOGICAL SECURITY

K. RACF Software Internal Controls

Condition:    Responsibilities of the RACF security administrator (assigned the SPECIAL attribute
              within RACF) had been combined with the responsibilities of the RACF auditor
              (assigned the AUDITOR attribute within RACF). In addition, seven user IDS within
              the Service Center had these combined attributes. This weakness was previously
              identified in a March 1994 Office of Inspector General audit report (No. 94-I-357).

Criteria:     The RACF Auditor’s Guide addresses the importance of the separation of duties
              between the security administrator and the auditor. The Guide states, “The separation
              of powers is necessary because it is the security administrator’s job to establish RACF
              controls, and it is the auditor’s function to test the adequacy and effectiveness of these
              controls. ”

Cause:        Service Center officials stated that RACF security administrator and RACF auditor
              functions were performed by the same individual because of the limited number of
              staff assigned to the group responsible for monitoring security. They further stated
              that the Service Center had a limited number of individuals who had expertise in the
              area of RACF administration,

Effect:        The control over the RACF security administrator function is lost because there was
               no systematic monitoring of this powerful function. Therefore, the risk exists for
               accidental or intentional unauthorized actions that could disrupt information system
               operations and threaten the integrity of the sensitive information.

Recommendation:

We recommend that the Director, Administrative Service Center, evaluate the staffing requirements
of the group responsible for monitoring security to ensure the separation of duties within RACF.




                                                 23
                                                                                      APPENDIX 1
                                                                                      Page 17 of 20



MAINFRAME COMPUTER PHYSICAL AND LOGICAL SECURITY



Condition:     Mainframe access given to users as assigned in RACF was not always supported by
               a formal request or was not recorded in the Service Center’s Decentralized Security
               Administration Facility.

Criteria:      The Service Center’s policy is for formal authorization requests to be obtained from
               the designated security point of contact before users are permitted to access sensitive
               data on the mainframe computer. In addition, the point of contact can orally notify
               the Service Center for adjustments to the users’ access requirements. Also, generally
               accepted industry standards recommend that reconciliations exist between what has
               been formally requested and what access level was actually granted to ensure that
               mishandling, alterations, and misunderstandings are reduced.

Cause:         Orally requested access level adjustments that were approved were not always
               recorded in the access request system because the Service Center did not always
               enforce the procedures to record approved access level adjustments.

Effect:        By not updating Decentralized Security Administration Facility records for
               adjustments to accesses requested, the system administrator cannot reconcile the
               formal authorization and the Decentralized Security Administration Facility records
               with the RACF access levels assigned to users and thus ensure that access is assigned
               at the appropriate level.

Recommendation:

We recommend that the Director, Administrative Service Center, document and implement
procedures to ensure that Decentralized Security Administration Facility records are updated for oral
access adjustments to allow for the reconciliation of access requested with access allowed.




                                                 24
                                                                                        APPENDIX 1
                                                                                        Page 18 of 20



MAINFRAME COMPUTER PHYSICAL AND LOGICAL SECURITY

M. Computer Security Plan/Report

Condition:     The Service Center had not developed a security plan for fiscal year 1996

Criteria:     The Computer Security Act of 1987 requires that all agencies improve the security
              and privacy of sensitive information in Federal computer systems. Specifically, the
              Act requires that security plans be developed for all sensitive computer systems. A
              computer security plan is designed to assist agencies in addressing the protection of
              general support systems and major applications that contain sensitive information to
              help ensure the system’s integrity, availability, and confidentiality. In addition, Office
              of Management and Budget Circular A-130, Appendix III, states that agencies
              without adequate security plans should consider classifying this as a material
              weakness in their annual Federal Managers’ Financial Integrity Act report to the
              Congress.

Cause:         A computer security plan was not prepared for fiscal year 1996 because of limited
               staffing in the group responsible for monitoring security.

Effect:       Without this plan, the Service Center did not have adequate assurance that data in its
              sensitive systems were adequately protected. In addition, the Service Center had a
              material weakness, which should be reported in its annual Federal Managers’ Financial
              Integrity Act report to the Congress.

Recommendation:

We recommend that the Director, Administrative Service Center, provide resources to ensure the
development of a computer security plan for the sensitive systems in accordance with the Computer
Security Act and Circular A-130, Appendix III.




                                                 25
                                                                                        APPENDIX 1
                                                                                        Page 19 of 20



CONTINGENCY PLANNING, BACKUP, AND DISASTER RECOVERY

N. Continuity of Operations Plan

Condition:     The Service Center’s Continuity of Operations Plan (dated December 28,1995) did
               not address recovery of one of the sensitive systems, the FFS; the LAN; and critical
               telecommunications links. Also, the Plan had not been updated to reflect all tests of
               the Plan completed in 1996. Additionally, the risk analysis, upon which the Plan is to
               be based, had not been updated since July 1990.

Criteria:      Office of Management and Budget Circular A- 130 requires agencies to establish a
               comprehensive contingency plan and periodically test the capability to perform the
               agency function supported by the application, as well as critical telecommunications
               links, in the event of a disaster or system failure. In order to accurately and
               successfully test the disaster recovery capabilities, the disaster recovery plans need to
               be updated as changes occur. In addition, the Circular states that “manual procedures
               are generally NOT [emphasis in original] a viable back-up option.”

Cause:         Service Center officials said that update of the risk analysis and continuity of
               operations plan had low priorities. In addition, Service Center officials stated that the
               FFS application was not included in the Plan as a result of Service Center clients
               agreeing that FFS services could be delayed for 30 days because processing could be
               performed manually. However, we found no documentation of such agreements.

Effect:        If the Continuity of Operations Plan is incorrect (such as by not including all sensitive
               systems) or is outdated, personnel required to perform the disaster recovery
               procedures may not be able to recover critical systems in the event of a disaster or
               system failure.

Recommendations:

We recommend that the Director, Administrative Service Center:

     1. Perform a risk analysis of the Service Center’s computer center and its applications.

    2. Update the existing Continuity of Operations Plan for the mainframe, sensitive applications,
and telecommunications links so that the current operating environment is documented.




                                                  26
                                                                                     APPENDIX 1
                                                                                     Page 20 of 20



CONTINGENCY PLANNING, BACKUP, AND DISASTER RECOVERY



Condition:    No comprehensive business recovery plan had been developed for the Service Center.
              The only plan in existence at the Service Center was the Continuity of Operations
              Plan, which addressed only the recovery of the systems environment. The Plan did
              not address business and user operations that need to be in effect for the Service
              Center to support its clients in the event of a disaster or system failure.

Criteria:     Of&e of Management and Budget Circular A-l 30 requires agencies to establish
              controls to ensure adequate security for all information processed, transmitted, or
              stored in Federal automated information systems. In addition, generally accepted
              information systems standards recognize that a comprehensive business recovery plan
              is necessary to ensure the timely recovery of all business functions and of the systems
              environment, both of which are critical for day-to-day operations, and to minimize
              down time.

Cause:        The Service Center’s emphasis was on the restoration of the mainframe environment
              rather than on the recovery of business operations.

Effect:       If a disaster or system failure occurs, the Service Center may not be able to recover
              all business functions and systems necessary for the continued long-term operations
              of the organization.

Recommendation:

We recommend that the Director, Administrative Service Center, develop a comprehensive business
recovery plan, which includes procedures for its business functions.




                                                27
                                                                                       APPENDIX 2
                                                                                        Page 1 of 26
                   United States Department of the Interior
                                     BUREAU OF RECLAMATION
                                          Washington. D.C. 20240

IS REPLYREFERTO



   D-5010
   ADM-8.00


                                           MEMORANDUM

   To:            Office of Inspector General
                   Attention: Acting Assistant Inspector
                                                  - General for Audits
   From:


   Subject:       Draft Audit Report on Mainframe Computer Policies and Procedures


   The Bureau of Reclamation appreciates the opportunity to comment on the subject report.
   Reclamation concurs or has complied with 23 of the 24 of the audit recommendations and we
   fully recognize the importance of computer security and that our policies and procedures can be
   improved. However, we believe the Administrative Service Center (ASC) has in place an
   adequate security program and are concerned with certain aspects of the report as outlined below.

   The report identified physical security as a weakness, We believe extensive physical security
   measures are in place at the ASC. The computer and related hardware (such as mainframe
   computer, direct access storage devices, tape devices, telecommunications equipment, large
   volume printers, etc.) are located in a locked computer room controlled for authorized access
   only. In addition, the computer room is located in a secure building where all outside doors are
   locked and require an individual access card for authorized entry. ASC security also includes on-
   site armed guard service 24 hours a day, 7 days a week. Following the Oklahoma City bombing,
   the Justice Department was directed by the President to conduct a Vulnerability Assessment of
   Federal Facilities. This assessment recognized five levels of security for Federal facilities based
   upon perceived threat and established security standards for each of the live levels. Based on this
   criteria, the ASC was deemed a Level III facility. The GSA participated in a review of ASC
   security and concluded the ASC exceeded Level III security requirements.

   The audit report identified areas to reduce security risks and recommended specific actions to
   reduce those risks. Both OMB Circulars A-123 and A-130 recognize cost as an important
   consideration and require that agencies implement cost effective management and internal
   controls. For instance, OMB Circular A-130 recognizes both risk and cost in addressing
   “adequate security.” Yet, discussions with the auditors confirmed that cost was not considered in
   recommending these specific actions to reduce risk.




                                                  28
                                                                                    APPENDIX 2
                                                                                     Page 2 of 26


                                                                                                     2

The audit report referred to “generally accepted industry and information systems standards” and
reported the ASC as noncompliant in several instances. Discussions with the auditors confirmed
that a conclusive set of these “standards” was not available and the auditors were not aware as to
whether these “standards” had ever been issued as official Government-wide policy. The
Department of the Interior’s Office of Information Resources Management likewise advised that
they were unaware of these “standards” and their applicability to Interior organizations.

Again, we appreciate the opportunity to comment on the subject report. Attached are our specific
comments for each recommendation. If you have any questions or require additional information,
please contact Luis Maez at (303) 236-3289, extension 245.




Attachment

cc:    Assistant Secretary - Water and Science, Attention: Margaret Carpenter
                 (w/attachment)




                                                29
                                                                                    APPENDIX 2
                                                                                     Page 3 of 26




COMPUTER CENTER MANAGEMENT AND OPERATIONS

A. Background Clearances

Condition:    Critical contractor personnel, such as the RACF administrator and software
              management personnel, did not have documented clearances.

Criteria:
              to establish and manage personnel security policies, standards, and procedures that
              include requirements for screening individuals who: (1) participate in the design,
              development, operation, or maintenance of sensitive applications or (2) have access
              to sensitive data.

Cause:        While Federal employees are required to have background clearances, the Service
              Center did not apply this requirement to contractors.

Effect:       Without proper personnel screening, managers had limited knowledge of the
              suitability of contractor personnel, from a security standpoint, for their respective
              jobs. Without this assurance, the risk is increased for the Service Center’s sensitive
              systems to be compromised.

Recommendation

We recommend that the Director, Administrative Service Center, require all contractor employees
to have the proper background clearances.

              Response

              Complied. All ADP contractor employees, including RACF administrators and
              systems software management personnel, are required to have background clearances.
              The Statement of Work for the GSA T&Part Contract (which ADP Services Division
              uses) contained a Level 3, critical-sensitive requirement, but this provision was not
              previously enforced. Also, at our request, the Colorado Bureau of Investigation has
              completed background investigations on all ADP contractor personnel. This is also
              a continuing requirement for all new-hire contractor personnel.




                                              30
                                                                                  APPENDIX 2
                                                                                   Page 4 of 26


LAN PROTECTION

B. LAN Monitoring

Condition:    Four file servers at the Service Center had minimal lockout settings. For example,
              current lockout procedures provide for only a I5-minute lockout after three or four
              unsuccessful log-in attempts We believe that these lockout settings would not
              adequately identify unauthorized access. The NetWare operating system software
              supports an “intruder detection/lockout feature,” which aids in the prevention of
              unauthorized access to the system. The system will suspend a user account when a
              predefined number ofunsuccessM access attempts occurs in a predetermined amount
              of time. The time that an account is suspended may also be defined.

Criteria:     The Privacy Act of 1974 and the Computer Security Act of 1987 require
              implementation of minimally acceptable security practices for improving the security
              and privacy of sensitive information in Federal computer systems. Office of
              Management and Budget Circular A-130 requires agencies to establish controls to
              ensure adequate security for all information processed, transmitted, or stored in
              Federal automated information systems. Also, the Circular requires agencies to
              ensure that appropriate safeguards exist in general support systems (for example,
              LANs and the data processing center, including the operating system and utilities).
              In addition, industry standards recommend a lockout period of 7 days.

Cause:
              Reclamation’s LAN standards. IIowever, the Bureau’s LAN implementation
              guidelines recognize that the minimum settings for intruder lockout parameters may
              be unacceptable to many offices. We believe, given the sensitivity of data at the
              Service Center, that minimum settings are unacceptable to ensure protection from
              unauthorized access to sensitive data.

Effect:       The minimum level of security set for the LAN increases the risk that unauthorized
              access to the Service Center’s LAN resources will not be detected timely.


Recommendation

We recommend that the Director, Administrative Service Center, enhance the intruder detection
settings above the Bureau of Reclamation’s policy to suspend a user account, after unsuccessful
access attempts, for a period of time long enough to ensure that the user will have to contact an
administrator to have the user ID reset. For example, the user ID could be suspended for 24 hours
after three incorrect attempts occurred in a 24-hour period.




                                                  2


                                             31
                                                                        APPENDIX 2
                                                                         Page 5 of 26

LAN PROTECTION

       Response

       Concur with intent. Although lockout settings already meet Reclamation LAN
       standards, we are willing to consider additional security enhancements as deemed
       appropriate. An evaluation will be made to determine if the settings should be
       changed. This evaluation is scheduled to be completed by June 30, 1997. The
       responsible official is the Chief, ADP Services Division.




                                       3


                                     32
                                                                                      APPENDIX 2
                                                                                       Page 6 of 26



LAN PROTECTION

C. LAN Disaster Recovery Plan

Condition:    The Service Center did not have a documented disaster recovery plan for its LAN.
              This weakness was identified in a March 1994 Office of Inspector General audit

              risk analysis (the first step in developing a disaster recovery plan) on its LAN.

Criteria:     Office of Management and Budget Circular A-130, Appendix III, requires agencies
              to establish controls to ensure adequate security for all information processed,
              transmitted, or stored in Federal automated information systems. Specifically,
              agencies should establish a contingency plan and periodically test the capability of the
              plan to perform the f?mction in the event that its automated systems fail.

Cause:        Because no risk analysis has been performed on the LAN, no disaster recovery plan
             -has been developed by the Service Center.

Effect:       The lack of a disaster recovery plan increases the risk that offices will not be able to
              resume processing on a timely basis after a disaster occurs.

Recommendation

We recommend that the Director, Administrative Service Center, develop and periodicahy update a
disaster recovery plan for the LAN.
                                                                                          .‘
              Response

              Concur. A risk analysis of the ASC LAN environment will be completed by
              September 30, 1997. The risk analysis will provide the basis for development of a
              LAN Disaster Recovery Plan which is targeted for completion by March 3 1, 1998.
              The responsible official is the Chief, ADP Services Division.




                                                 4


                                               33
                                                                                    APPENDIX 2
                                                                                     Page 7 of 26



LAN PROTECTION

D. User Access Control

Condition:   The security settings that provide access to the file servers were not controlled. We
             identified weaknesses in the way user profiles had been established. In NetWare,
             established user profiles superseded the ftle server default restrictions. As such, some
             users had a required password change interval greater than 90 days, had concurrent
             multiple or unlimited connections, and were not required to use unique passwords.

             In addition, the “SECURE CONSOLE” command was not used on any of the file
             servers we reviewed. The “SECURE CONSOLE” command is designed to prevent
             users from gaining access to the file server console by removing DOS from the system
             memory when the operating system is powered down. Also, the “SET ALLOW
             UNENCRYPTED PASSWORD = ON” was found on two of the file servers
             reviewed. This designation allows passwords to be UNENCRYPTED, thereby
             increasing the risk for passwords to be obtained and used by unauthorized users.

Criteria:    Office of Management and Budget Circular A- 130, Appendix III, requires agencies
             to establish controls to ensure adequate security for all information processed,
             transmitted, or stored in Federal automated information systems. It also requires
             agencies to implement and maintain a program to ensure that adequate security is
             provided for all agency information collected, processed, transmitted, stored, or
             disseminated in general support systems and major applications. The Circular further
             defines “adequate security” as “security commensurate with the risk and magnitude
             of harm resulting from the loss, misuse, or unauthorized access to or modification of
             information. ”

Cause:       Service Center procedures were not followed or were not in place to ensure that
             controls were adequate to safeguard the LANs.

Effect:      The minimum security settings for the Service Center’s LAN increase the risk for
             unauthorized access to network systems, which could result in the loss of data and
             in unauthorized individuals gaining access to sensitive data files through DOS by
             bringing down the file server.




                                                5

                                              34
                                                                                    APPENDIX 2
                                                                                     Page 8 of 26


LAN PROTECTION

Recommendations

We recommend that the Director, Administrative Service Center:

     1. Ensure that LAN security and password features are implemented, which will require all users
to change passwords every 90 days; enforce unique password use; and limit concurrent multiple or
unlimited connections to one per user and grant additional connections on an as-needed basis.


               Response

               Complied. The password change interval has been changed to 90 days or less on all
               servers. Unique passwords are now required for all individual users. Concurrent
               multiple connection authority has been removed from all accounts with the exception
               of those where a demonstrated need. exists. Requests for multiple .concurrent
               connections now require completion of an ASC-14 Computer Security Access
               Request Form with appropriate supervisory authorization.

     2. Include the “SECURE CONSOLE” command in the AUTOEXEC.NCF file on all file servers
to prevent users from gaining access to the system files in DOS mode.
                                                                                      . ‘,
               Response

               Complied. A procedure to secure the console on all ASC file servers was
               implemented in August 1996. The “LOAD MONITOR” command with the “lock”
               option was included in the AUTOEXEC.NCF file in January 1997.

     3. Ensure that the command “SET ALLOW UNENCRYPTED PASSWORD=ON” is not
present in the AUTOEXEC.NCF file.

               Response

               Concur. The “SET ALLOW UNENCRYPTED PASSWORD=ON” command cannot
               be set at this time. Certain versions of the NETWARE “NETX” client requestor are
               present on some ASC workstations that are not compliant with the encrypted
               password feature. When the migration to Netware 4. lx NDS (Novell Directory
               Services) is completed at the ASC and all client workstations have been migrated to
               Netware VLMs, this command will be invoked on all file servers. Migration to NDS
               will be completed as part of a Reclamation-wide effort. Although unencrypted
               passwords are accepted at this time, the vast majority of passwords processed by ASC
               file servers are currently encrypted. Target date for completion is March 3 1, 1998.
               The responsible official is the Chief, ADP Services Division.


                                                 6


                                               35
                                                                                       APPENDIX 2
                                                                                        Page 9 of 26



FFS APPLICATION                                                                       -
E. Access Security Controls

Condition:     FFS security access controls were not adequate. We identified 15 users. who were
               Service Center employees. who could update and modify the application vendor table
               of one of the Service Center’s clients, as well as initiate disbursement documents.
               This access could result in the vendor table being changed and in an unauthorized
               disbursing document being entered.

Criteria:      Office of Management and Budget Circular A-l30, Appendix III, requires that
               security controls for personnel include such controls as individual accountability,
               “least privileged,” and separation of duties. “Least privileged” is the practice of
               restricting users’ access (to data files, to processing capability, or to peripherals) or
               type of access (read, write, execute, or delete) to the minimum necessary for the users
               to perform their jobs. Separation of duties is the practice of dividing the steps in a
               critical function among different individuals.

Cause:         Although the Service Center provided payment services to its client, the Service
               Center had not ensured that security controls in the FFS application prevented
               unauthorized payments.

Effect:        Without the applicable security access controls, the risk is increased for unauthorized
               payments to be disbursed.


Recommendation

We recommend that the Director, Administrative Service Center. coordinate with the client to limit
Service Center users’ access to the “least privileged” in the FFS application; that is, assurance should
be provided that any user authorized to enter or change the vendor table does not also have access
to disbursing documents.

               Response

               Complied. As requested by the ASC, the client has changed FFS security such that
               no employees have access to both the vendor tables and disbursement fimction. It
               should be noted that this condition was confined strictly to the transfer of a client’s
               administrative payments function and related employees to the ASC in May 1996.
               The client is responsible for managing and controlling FFS access for this payments
               function. In other words, the ASC cannot initiate or change FFS access for
               employees performing this client’s payments. Also, it should be noted that
               discussions with the auditors confirmed that no unauthorized disbursements were
               found.

                                                     7


                                                36
                                                                                       APPENDIX 2
                                                                                       Page 10 of 26


MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY

F. Physical Security

Condition:     Although access to the Service Center facilities was controlled, the Service Center
               could not identify all individuals who had card key access to the computer rooms,
               which house the mainframe and LAN. In addition, some Service Center visitors (for
               example, maintenance personnel, janitorial staff, and vendors) were not monitored
               when they were inside the computer room.

Criteria:      The Department of the Interior Automated Information System Handbook, when
               addressing the control for personnel access to computer facilities, states, “Access by
               visitors, equipment personnel, and other individuals not directly involved with
               managing or operating a sensitive automated information system installation will be
               controlled by individual authorization.” The Handbook further states that it is
               recognized that different procedures and restrictions will be required for various
               categories of visitors but that all access by other than assigned personnel will be
               monitored.

Cause:         The Service Center’s informal procedures provided for vendors, as well as for the
               building management company, to be issued card keys to these sensitive areas without
               identifying the individuals receiving the cards and without requiring formal access
               request forms. Also, current practices allow certain visitors to be unmonitored when
               they are in the sensitive areas.

Effect:        The Service Center cannot specifically identify all those individuals who have access
               to and/or are accessing the computer rooms. Furthermore, by not monitoring all
               visitors, the risk is increased for the Service Center’s sensitive data and resources to
               be stolen or destroyed.


Recommendations

We recommend that the Director, Administrative Service Center:


instituted for vendors in addition to contractors and Federal employees.

               Response

               Complied. Procedures for the issuance of card keys for vendors, contractors, and
               Federal employees have been documented. As evidenced by this recommendation,and
               Recommendation 3 (below), we believe this condition should have been more



                                                  8


                                                37
                                                                                     APPENDIX 2
                                                                                     Page 11 of 26


MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY

               appropriately stated as a currency of documentation issue. Two levels of security
               control must be passed before entry into the computer room. As concluded by GSA,
               ASC’s physical security exceeds security standards for a Level III Federal facility.
               Although the ASC has always had a strong physical security emphasis and program
               in place, it was recently enhanced with implementation of a picture identification card
               system that is now compatible with the Bureau of Reclamation system for Building 67
               at the Denver Federal Center.

     2. Evaluate the need for individuals outside of the ADP Services Division to be issued permanent
card keys because such access should be limited to those individuals performing their day-to-day
duties.

               Response

               Complied. The evaluation was completed by the ADP Services.Di4sion and the
               Management Services Division in February 1997. Permanent card keys are issued to
               just those individuals deemed appropriate.

     3. Document procedures to ensure the Service Center’s compliance with the Department of the
Interior Automated Information Systems Handbook regarding visitor (such as maintenance
personnel, janitorial staff, and vendors) monitoring.                                   .:

               Response

               Complied. Procedures for monitoring visitor access to the computer room have been
               documented by the Management Services Division in compliance with the Department
               of the Interior’s Automated Information Systems Handbook.




                                                    9


                                               38
                                                                                    APPENDIX 2
                                                                                    Page 12 of 26


MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY

G. Password Settings

Condition:     In RACF, general client user passwords for access to the mainframe were not
               prompted for change until after 180 days, and user ID codes were not automatically
               revoked until 180 days of inactivity.

Criteria:      The Department of the Interior Automated Information Systems Security Handbook
               recommends that passwords be changed every 90 days. Also. generally accepted
               industry standards indicate that password change intervals should be fi-om 60 to 90
               days for users who do not have sensitive privileges and every 30 days for users who
               do have sensitive privileges because passwords may be guessed. copied, overheard,
               or recorded and played back.

Cause:         To make access to the mainframe applications more convenient for Service Center
               clients who use the mainframe applications only occasionally, notably theSF=52
               System users, the Service Center increased the password interval to 180 days in 1994
               after receiving approval from the Bureau of Reclamation’s Security Administrator.
               However, this approval recommended that the Service Center change the password
               parameters, such as requiring a numeric or special character as part of the password,
               set in RACF security software. Service Center officials stated that the ‘180-day
               inrerval was acceptable because of security available within the mainframe
               applications. However, not all of the mainframe applications have access security.

Effect:        The current password settings reduce the effectiveness of the password as a control,
               thereby increasing the risk for unauthorized access to sensitive information through
               password disclosure.


Recommendations

We recommend that the Director. Administrative Service Center:

     1. Evaluate the feasibility of setting the parameters in RACF security software to require,one
numeric or special character as part of the password, as recommended by the Bureau of
Reclamation’s Security Administrator.

               Response

               Concur. An evaluation of using one numeric or special character as part of the ASC
               standard password will be completed by September 30, 1997. The responsible offtcial
               is the Chief, ADP Services Division.



                                                10


                                               39
                                                                                     APPENDIX 2
                                                                                     Page 13 of 26


MAINFRAME SYSTEM PHY-SICAL AND LOGICAL SECURITY

      2. Reevaluate <he standard RACF password change intervals and revocation settmgs to ensure
that the level of risk associated with the mainframe applicattons and the current password settings is
acceptable to the Service Center, as well as to its clients and the Department, and address these
results in a current risk assessment.

               Response

               Concur with intent. The ASC plans to recontirm the 180-day interval with clients and
               the Department System Owner. This e8ot-t is targeted for completion September 30,
               1997. The responsible offtcial is the Chief, ADP Services Division.

               It should be noted, however, that the 180-day password interval exists for only one
               application....the automated SF-52 System. The extended interval was requested by
               clients primarily for infrequent users of the system and was coordinated with the
               Department of the Interior System Owner and the Interior Depattment’s Office of
               Information Resource Management. In addition a waiver to use the 1 go-day interval
               was obtained from the Bureau of Reclamation Computer Security Manager per the
               procedures set forth in 375 DM 19. It should also be noted that while 1180 days is the
               overall system maximum: the password expiration period for each user is set
               individually by the client’s Security Point-of-Contact based on their evaluation of the
               risk associated with the user. The ASC has issued guidance to its clients
               recommending that the expiration period of 180 days only be used for infrequent users
               of the system whose access presents a low risk. Finally, the last two sentences of the
               “Cause:” refer to mainframe applications and whether or not they have access
               security. Since the 180-day interval only relates to the automated SF-52 System
               which does have access security, the two sentences are not relevant to this issue.




                                                  11


                                               40
                                                                                   APPENDIX 2
                                                                                   Page 14 of 26


MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY                                                   ’

H. SMF Logs

Condition:   At least 27 Service Center user ID codes that were allowed access to the TSO
             software had “alter” access to the “SYSl.MAN%” dataset. The SYSl.MAN%
             dataset contains the SMF logs that record all system activity. thereby providing a
             system audit trail. In addition a critical SMF record type, record type 60, was not
             active.

Criteria:    Office of Management and Budget Circular A-130 recommends that adequate audit
             trails exist so that an adverse impact on general support systems is prevented or
             detected. Also, Federal Information Processing Publication 41, “Computer Security
             Guidelines for Implementing the Privacy Act of 1974,” provides guidelines for system
             security and addresses the importance of having audit trails of ail system activity.

Cause:       The Service Center had insufficient policies and procedures surrounding the
             protection of the SYS1.MAN% datasets. Also, SMF record type 60 was not active
             because Service Center officials said that they believed another software product
             INFOPAC (report generation software) created too many records. They said,
             therefore, that to reduce the amount of storage needed for SMF logs, record type 60
             was not activated.

Effect:      By allowing users “alter” access to these logs, the risk is increased for the SMF logs
             to be inaccurate. Furthermore, because record type 60 is not active, no system audit
             trail exists to determine whether the changes to sensitive datasets by authorized
             individuals are appropriate. Specifically, because the PAY/PERS application has no
             internal security to monitor access and ‘changes to its datasets, the Service Ctnter
             relies only on RACF security. The active SMF record types identified only security
             violations and did not record changes made to datasets. Therefore. rn the PAY/PERS
             application, there was no system audit trail available to monitor and evaluate changes
             made to PAY/PERS sensitive data.




                                               12


                                             41
                                                                                    APPENDIX 2
                                                                                    Page 15 of 26


MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY __

Recommendations

We recommend that the Director. Administrative Service Center :

     1. Evaluate the feasibility of limiting the number of Service Center users who have access
authority to alter SMF logs.

               Response

               Complied. The evaluation was completed in December 1996 to limit the number of
               individuals with access authority to alter SAF logs. This authority has now been
               limited to just three senior level system programmers that reside in the System
               Software Management Branch. The evaluation was completed by the Chief, Systems
               Management Branch, the ASC Computer Security Manager and approved by the


    2. Ensure that the SMF record type 60 logging is active or RACF settings are adjusted to
specifically audit critical datasets maintained on the mainframe computers and to therefore provide
an audit trail of system activity.

               Response

               Complied. Batch and TSO type 60 records have always been written to the SMF log.
               Type 60 record collection has now been activated for “started tasks” as well.




                                                13


                                               42
                                                                                     APPENDIX 2
                                                                                     Page 16 of 26



MAINFRAME COMPUTER PHYSICAL AND LOGICAL SECURITY

I.   “OPERATIONS” Attribute

Condition:   The Service Center gave access to all of the operating system resources by assigning
             the “OPERATIONS” attribute to 85 active Service Center user IDS without logging
             the activities of these users. Through this access, users could make unauthorized
             changes to the mainframe computer operating system and sensitive application
             datasets without being detected by routine security controls.

Criteria:    The RACF Auditor’s Guide states that 3he OPERATIONS attribute allows a user
              access to almost all resources” and that the “group-OPERATIONS attribure allows
              a user access to almost all resources within the scope of the group and its subgroups.”
              The “OPERATIONS” attribute, with some exceptions, provides the user with full
              control over datasets. Further. the RACF Security Administrator’s Guide
              recommends that the “OPERATIONS” attribute be assigned to a minimum number
             of people and that the activities of the users be logged. RACF allows the use of more
              restrictive authorities, such as DASDVOL authority, when routine maintenance
              operations are performed. RACF security software also provides the option to log
              activities of users with the “OPERATIONS” attribute by activating the OPERAUDIT
              option.

Cause:,      The Service Center had not assigned more restrictive authorities to individuals who
             performed routine system maintenance tasks because the Service Center had not
             evaluated the system access authority needed for individual users in performing their
             day-to-day functions.     Also, the Service Center had not implemented the
             OPERAUDIT security feature in RACF that would log user activities as a result of
             the “OPERATIONS” attribute.

Effect:      Because the OPERAUDIT security feature had not been activated, any resource on
             the mainframe computer could be accessed using the “OPERATIONS” attribute
             without recording the user’s access. This setting, along with the lack of system audit
             trails that would be produced by the SMF 60 record type, increases the risk for
             intentional or accidental unauthorized system actions to occur and not be detected.




                                                14


                                              43
                                                                                 APPENDIX 2
                                                                                 Page 17 of 26

MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY

Recommendations

We recommend that the Director, Administrative Service Center:

    1. Evaluate the extent to which the “OPERATIONS” attribute should be available to Service
Center user IDS. Specifically, the use of other more restrictive RACF authorities (such as
DASDVOL authority) should be considered where possible.

              Response

                Concur. An evaluation will be conducted to limit the “OPERATIONS” attribute to
                those authorized ADP personnel deemed necessary and appropriate as well as
                consider other more restrictive RACF authorities. Target date for completion is
                December 31, 1997. The responsible official is the Chief, ADP Services Division.
      ._                              ..                                                    ,..
     2. Activate the security feature RACF OPERAUDIT and ensure that security personnel perform
periodic reviews of the resultant logs to identify unauthorized activity.

              Response

              Complied. The feature IUCF OPERAUDIT has been activated and the resultantlogs
              will be reviewed on a quarterly basis by the ASC Computer Security Manager. It
              should be noted that this situation is restricted to ADP authorized personnel only.




                                               15


                                             44
                                                                                        APPENDIX 2
                                                                                        Page 18 of 26



MAINFRAME COMPUTER PHYSICAL AND LOGICAL SECURITY

J. ADP Access Levels

Condition:    Users in the Service Center’s ADP Services Division had significant access levels.
              For example, 28 user IDS had RACF authority to emulate the master console, even
              though the authority to issue operator commands through the TSO was not given to
              these individuals. In addition 28 user IDS had “alter” access to the system parameter
              libraries (for example, the SYS1.PARMLIB) through the TSO.

Criteria:      Offtce of Management and Budget Circular A-130 requires, at a minimum, that
               agency programs incorporate controls such as “separation of duties, least privileged,
               and individual accountability” within their major applications.

Cause:         Because of other Service Center priorities. the group responsible for monitoring
               security had not performed an audit of user access levels and therefore had not
               identified the required necessary changes and had not ensured that user access wasat

               procedures to ensure that “least privileged” access controls and appropriate separation
               of duties were in place.

Effect:        By allowing significant access levels to critical functions, the risk is increased for
               datasets to be altered without authorization and for the alteration to go undetected
               by normal operating controls. Without periodic review of user access levels,‘the risk
               is increased that the access given to a user will exceed that which is necessary to
               perform the user’s daily job.

Recommendations

We recommend that the Director, Administrative Service Center:

     1. Ensure that the group responsible for monitoring security performs periodic reviews of user
access levels to identify required necessary changes and to ensure that user access levels are
authorized.

               Response

               Concur. A project to identify and initialize auditing for all critical sensitive dataset’s
               will be started. The target date for completion is June 30, 1997. The responsible
               official is Chief, ADP Services Division.




                                                  16


                                                 45
                                                                                          APPENDIX 2
                                                                                          Page 19 of 26

MAINFRAME SYSTEM PHYSICAL AND LOGICAL SECURITY

      2. Institute a policy of “least privileged” access levels to ensure that access to resources and data
is limited to those users who require such access.

                Response

                Complied. A policy of “least privileged” access is now in place. While the capability
                to emulate the master console is assigned to a few individuals, the ability to issue
                critical operating system level commands has not been given. These commands are
                limited to the master console which is located in a locked, secured computer room
                accessible by authorized personneP onIy.




                                                    17


                                                  46
                                                                                       APPENDIX 2
                                                                                       Page 20 of 26


MAINFRAME COMPUTER PHYSICAL AND LOGICAL SECURITY

K. RACF Software Internal Controls

Condition:    Responsibilities of the RACF security administrator (assigned the SPECIAL attribute
              within RACF) had been combined with the responsibilities of the RACF auditor
              (assigned the AUDITOR attribute within RACF). In addition, seven user IDS within
              the Service Center had these combined attributes. This weakness was previously
              identified in a March 1994 Office of Inspector General audit report (No. 94-I-357).

Criteria:     The RACF Auditor’s Guide addresses the importance of the separation of duties
              between the security administrator and the auditor. The Guide states, “The separation
              of powers is necessary because it is the security administrator’s job to establish RACF
              controls, and it is the auditor’s function to test the adequacy and effectiveness of these
              controls. ”

Cause:        Service Center officials stated that RACF security administrator and RACE-auditor
              functions were performed by the same individual because of the limited number of
              staff assigned to the group responsible for monitoring security. They further stated
              that the Service Center had a limited number of individuals who had expertise in the
              area of RACF administration.

Effect:       The control over the RACF security administrator function is lost because there was
              no systematic monitoring of this powerful function. Therefore, the risk exists for
              accidental or intentional unauthorized actions that could disrupt informatiorrsystem
              operations and threaten the integrity of the sensitive information.

Recommendation

We recommend that the Director, Administrative Service Center, evaluate the staffing requirements
of the group responsible for monitoring security to ensure the separation of duties within RACF.

              Response

              Concur. Staffing requirements will be evaluated to ensure the separation of duties
              within RACF. Separation of RACF administrator and auditor responsibilities will be
              accomplished to the maximum extent possible. However, combining these
              responsibilities in isolated situations is necessary and will be managed accordingly.
              Also, we disagree with the statement that this condition was caused by “the limited
              number of staff assigned to the group responsible for monitoring security.” This

              this evaluation is September 30, 1997. The responsible official is the Chief, ADP
              Services Division.


                                                 18


                                               47
                                                                                      APPENDIX 2
                                                                                      Page 21 of 26

MAINFRAME COMPUTER PHYSICAL AND LOGICAL SECURITY

L.   Authorization - Internal Controls

Condition:     Mainframe access given to users as assigned in RACF was not always supported by
               a formal request or was not recorded in the Service Center’s Decentralized Security
               .lidministration Facility.

Criteria:      The Service Center’s policy is for formal authorization requests to be obtained from
               the designated security point of contact before users are permitted to access sensitive
               data on the mainframe computer. In addition, the point of contact can orally notify
               the Service Center for adjustments to the users9 access req.unements. Also, generally
               accepted industry standards recommend that reconctliations exist between what has
               been formally requested and what access level was actually granted to ensure that
               mishandling, alterations, and misunderstandings are reduced.

Cause:         Orally requested access level adjustments that were approved were not always
               recorded in the access request system because the Service Center did not always
               enforce the procedures to record approved access level adjustments.

Effect:        By not updating Decentralized Security Administration Facility records for
               adjustments to accesses requested, the system administrator cannot reconcile the
               formal authorization and the Decentralized Security Administration Facility records
               with the RACF access levels assigned to users and thus ensure that access is assigned
               at the appropriate level.


Recommendation

We recommend that the Director, Administrative Service Center, document and implement
procedures to ensure that Decentralized Security Administration Facility records are updated for oral
access adjustments to allow for the reconciliation of access requested with access allowed.

               Response

               Nonconcur. We disagree there is a problem and question any adverse effect. Formal
               requests for user access are made through client Security Points-of-Contact to the
               ASC Security Manager. As users begin accessiig the system revisions to their access
               are sometimes necessary in order to perform their duties. To expedite these revisions,
               client Security Points-of-Contact may orally contact the ASC Security Manager.
               Since only client and AS@ security offkials can effect these access revisions, we




                                                 19


                                                48
                                                                             APPENDIX 2
                                                                             Page 22 of 26

MAINFRAME COMPUTER PHYSICAL AND LOGICAL SECURITY

       question any adverse effect as well as any benefit from retroactively requiring
       additional documentation. Also, “generally accepted industry standards” are cited as
       applicable criteria. As previously addressed in our response, discussions with the
       auditors confirmed that a conclusive set of “generally accepted industry and
       information system standards” were not available and the auditors were not aware as
       to whether these “standards” had ever been issued as official Government-wide
       policy. The Department of the Interior’s Office of Information Resources
       Management likewise advised that they were unaware of these “standards” and their
       applicability to Interior organizations. Finally, we question the recommendation in
       terms of consistency with OMB policies. Both OMB Circulars A-123 and A-130
       recognize cost as an important consideration and require that agencies implement cost
       effective management and internal controls. For instance, OMI3 Circular A-130
       recognizes both risk and cost in addressing “adequate security.” Yet, discussions with
       the auditors confirmed that cost was not considered.




                                        20


                                       49
                                                                                     APPENDIX 2
                                                                                     Page 23 of 26


MAINFRAME COMPUTER PHYSICAL AND LOGICAL SECURITY

M. Computer Security Plan/Report

Condition:     The Service Center had not developed a security plan for fiscal year 1996.

Criteria:      The Computer Security Act of 1987 requires that all agencies improve the security
               and privacy of sensitive information in Federal computer systems. Specificaliyy, the
               Act requires that security plans be developed for all sensitive computer systems. A
               computer security plan is designed to assist agencies in addressing the protection of
               general support systems and major applications that contain sensitive information to
               help ensure the system’s inte@ty, availability, and confidentiality. In addition Office
               of Management and Budget Circular A-130, Appendix III! states that agencies
               without adequate security plans should consider classifying this as a material
               weakness in their annual Federal Managers’ Financial Integrity Act report to the
               Congress”
                                                                                     .
Cause:         A computer security plan was not prepared for fiscal year 1996 because of limited
               staffing in the group responsible for monitoring security.

Effect:        Without this plan the Setvice Center did not have adequate assurance that data in its
               sensitive systems were adequately protected. In addition, the Service Center had a
               material weakness, which should be reported in its annual Federal Managers’ Financial
               Integrity Act report to the Congress.

Recommendation

We recommend that the Director. Administrative Service Center, provide resources to ensure the
development of a computer security plan for the sensitive systems in accordance with the Computer
Security Act and Circuiar A-130, Appendix III. Also, the lack of a security plan should be reported
as a material weakness to the Department of the Interior for inclusion in its next annual Federal
Managers’ Financial Integrity Act report until a plan is developed and meets the requirements of
Circular A- 130.

               Response

               Complied. A current computer security plan was documented and submitted in
               January 1997 in accordance with Department of the Interior Office of Information
               Resources Management requirements. The ASC has had an effective security
               program in place that has included, for example, periodic reviews of security controls
               in each major system as required by OMB Circular A-130. These reviews have
               disclosed no significant security problems or deficiencies.




                                               50
                                                                                        APPENDIX 2
                                                                                        Page 24 of 26



CONTINGENCY PLANNING, BACKUP, AND DISASTER RECOVERY

.N.   Continuity of Operations Plan

Condition:
                not address recovery of one of the sensitive systems, the FFS; the LAN; and critical
                telecommunications links. Also, the Plan had not been updated to reflect all tests of
                the Plan completed in 1996. Additionally, the risk analysis, upon which the Plan is to
                be based, had not been updated since July 1990.

Criteria:       Office of Management and Budget Circular A-130 requires agencies to establish a
                comprehensive contingency plan and periodically test the capability to perform the
                agency function supported by the application, as well as critical telecommunications
                links, in the event of a disaster or system failure. In order to accurately and
                successfully test the disaster recovery capabilities, the disaster recovery plans need to
                be updated as changes occur. In addition the Circular states that “manual procedures
                                                                                            .    _

Cause:          Service Center officials said that update of the risk analysis and continuity of
                operations plan had low priorities. In addition, Service Center officials stated that the
                FFS application was not included in the Plan as a result of Service Center clients
                agreeing that FFS services could be delayed for 30 days because processing could.be
                performed manually. However, we found no documentation of such agreements.

Effect:         Ifthe Continuity of Operations Plan is incorrect (such as by not including all sensitive
                systems) or is outdated, personnel required to perform the disaster recovery
                procedures may not be able to recover critical systems in the event of a disaster or
                                                                                                   .
                system failure.

Recommendations

We recommend that the Director, Administrative Service Center:

      1. Perform a risk analysis of the Service Center’s computer center and its applications.

                Response

                Complied. A risk analysis of the computer center was completed in November 1996:
                The security plan calls for periodic reviews of security controls for major systems in
                accordance with the requirements of OMB Circular A-130.




                                                   22


                                                 51
                                                                                    APPENDIX 2
                                                                                    Page 25 of 26

CONTINGENCY PLANNING, BACKUP, AND DISASTER RECOVERY

    2. Update the existing Continuity of Operations Plan for the mainframe, sensitive applications,
and telecommunications links so that the current operating environment is documented.

               Response

               Concur. The Continuity of Operations Plan will be updated for the mainframe,
               sensitive applications and telecommunication links by September 30, 1997. The
               responsible official is the Chief, ADP Services Division. It should be noted that we
               believe this condition should have been more appropriately stated as a currency of
               documentation issue. The ASC has addressed recovery of the Federal Financial
               System and telecommunications although not formally documented. This will now
               be documented as part of the update of the Continuity of Operations Plan.




                                                23


                                               52
                                                                                     APPENDIX 2
                                                                                     Page 26 of 26


CONTINGENCY PLANNING, BACKUP, AND DISASTER RECOVERY



Condition:     No comprehensive business recovery plan had been developed for the Service Center.
               The only plan in existence at the Service Center was the Continuity of Operations
               Plan, which addressed only the recovery of the systems environment. The Plan did
               not address business and user operations that need to be in effect for the Service
               Center to support its clients in the event of a disaster or system failure.

Criteria:      Office of Management and Budget Circular A-P30 requires agencies to establish
               controls to ensure adequate security for all information processed, transmitted, or
               stored in Federal automated information systems. In addition, generally accepted
               information systems standards recognize that a comprehensive business recovery plan
               is necessary to ensure the timely recovery of all business functions and of the systems
               environment, both of which are critical for day-to-day operations, and to minimize
                                                                                               __.

Cause:         The Service Center’s emphasis was on the restoration of the mainframe environment
               rather than on the recovery of business operations.

Effect:        If a disaster or system failure occurs, the Service Center may not be able to recover
               all business functions and systems necessary for the continued long-term operations
               of the organization.

Recommendation


recovery plan, which includes procedures for its business functions.

               Response

               Concur with intent. Although, we are not aware of any specific requirement for a
               “comprehensive business recovery plan,” we are willing to evaluate major operations
               and business functions to ensure long-term sustainability. Completion of the
               evaluation is targeted for March 31, 1998. The responsible official is the Chief,
               Management Services Division.




                                                 24


                                               53
                                                                        APPENDIX 3

           STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
         Reference            Status                 Action Required




                                            No further response to the
                                            Department of the Interior Office
                                            of Inspector General is required.
                                            The recommendations will be
                                            referred to the Assistant
                                            Secretary for Policy,
                                            Management and Budget for
                                            tracking of implementation.

                         Unresolved.        Reconsider the recommendation,
          L.l                               and provide an action plan that
                                            includes target dates and titles of
                                            officials responsible for
                                            implementation.




                                       54
